TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          The Screening and Monitoring of
                           E-File Providers Has Improved,
                        but More Work Is Needed to Ensure
                         the Integrity of the E-File Program



                                          March 31, 2010

                              Reference Number: 2010-40-042




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 31, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Screening and Monitoring of E-File Providers
                              Has Improved, but More Work Is Needed to Ensure the Integrity of the
                              E-File Program (Audit # 200940029)

 This audit presents the results of our review to determine whether the Internal Revenue Service’s
 (IRS) screening and monitoring of electronic filing (e-file) Providers is effective. This review
 was included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2009
 Annual Audit Plan and is a followup to a prior report. 1 This audit addresses the major
 management challenges of Taxpayer Privacy and Protection, Leveraging Data to Improve
 Program Effectiveness and Reduce Costs, and Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 The primary means by which the IRS regulates e-file Providers are the application screening
 process and the monitoring program. The application screening process does not ensure the
 integrity of the individuals applying for participation in the e-file Program, and the monitoring
 program does not ensure e-file Providers are compliant with e-file Program requirements.
 Inadequate screening and monitoring increases the risk to both the taxpaying public and the
 Federal Government for potential losses associated with unscrupulous e-file Providers.




 1
  Better Screening and Monitoring of E-File Providers Is Needed to Minimize the Risk of Unscrupulous Providers
 Participating in the E-File Program (Reference Number 2007-40-176, dated September 19, 2007).
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



Synopsis
There were 207,419 authorized Electronic Return Originators (a type of e-file Provider) as of
June 21, 2009, who e-filed approximately 61 million (66 percent) of the 92 million e-filed tax
returns accepted in Calendar Year 2009. The application screening process is used to ensure
individuals applying for entry into the e-file Program have met required screening and
verification checks before they are authorized to participate in the e-file Program. Monitoring
visits are the primary means to verify the e-file Providers compliance with many of the e-file
Program requirements.
The screening and monitoring of e-file Providers has improved, but more work is needed to
ensure the integrity of the e-file Program. In response to our Fiscal Year 2007 report, the IRS
began validating existing e-file Providers as Not-for-Profit organizations and verifying that
existing e-file Providers and new applicants are either United States citizens or legal aliens with
authorization to work. However, not all Not-for-Profit organizations were validated and not all
citizenship statuses of e-file Providers have been verified. A statistical sample of
97 e-file Providers from a population of 13,797 that were active as of August 2009, and
designated as Not-for-Profit organizations, showed that 18 (19 percent) were erroneously
designated as Not-for-Profit organizations. Twelve (12 percent of the sample) of the 18 were not
subjected to suitability checks.
For both existing and new applicants, if the citizenship status is blank or unknown on the
Social Security Administration’s Data Master-1 file, the IRS is not requesting that the
e-file Provider verify citizenship status. The IRS found that about 109,000 (52 percent) of
210,000 e-file Providers do not have a citizenship code in the Data Master-1 file. Furthermore,
the criteria being used to identify new applicants who are not United States citizens or legal
aliens should include the citizenship category of “alien, student, restricted work authorization.”
A statistical sample of 89 of the 961 e-file Providers, active as of July 2009, showed that
73 (82 percent) of the e-file Providers proved their citizenship status; 16 (18 percent) did not.
For the 2009 Filing Season, the IRS planned to conduct more than 1,500 e-file Provider
monitoring visits, which accounted for about 1 percent of the 143,000 e-file Providers who
e-filed more than 50 tax returns in Fiscal Year 2008. The IRS reported that IRS employees
conducted 1,651 visits during the 2009 Filing Season. As a result of these visits, 813 adverse
actions were reported, including 102 (13 percent) proposed suspensions, 120 (15 percent)
immediate suspensions, and 1 (0.1 percent) expulsion.
Although procedures have been developed to address recommendations from the Fiscal
Year 2007 audit report regarding the monitoring of e-file Providers, they are not always being




                                                                                                     2
                              The Screening and Monitoring of E-File Providers
                             Has Improved, but More Work Is Needed to Ensure
                                     the Integrity of the E-File Program


followed. Tests of three out of the seven Area Offices 2 showed that the changes have not been
implemented. The Monitoring Coordinators are not contacting the IRS’ Criminal Investigation
Division to discuss any trends or problems it is finding with e-file Providers, suspension logs that
track proposed suspensions are not always maintained, and followups are not always conducted
with the IRS’ Appeals Office to determine the outcome of appeals filed by the e-file Providers.
Furthermore, the IRS does not always target visits based on the criteria of 100 or more returns
filed in the previous year and a 25 percent or higher reject rate, and the required followup visits
are not always performed. Some referrals are tracked in the monitoring logs, but we were unable
to verify if there were any additional referrals received by the Monitoring Coordinators, other
than the referrals noted in the logs used to document all of the visits. Year-end reconciliations of
the case files to the monitoring logs and the reports sent to the Small Business/Self-Employed
(SB/SE) Division Headquarters are not conducted.
In addition, the SB/SE Division and the Electronic Tax Administration and Refundable Credits
office are not using the results of the monitoring program to improve the e-file Program. The
individual results of the monitoring visits do not go beyond the monitoring coordinators. The
monitoring visit case files are maintained at the Area Offices, and the information elevated is
only the total number of visits conducted and the number of warnings, reprimands, suspensions,
and expulsions issued.

Recommendations
The Commissioner, Wage and Investment Division, should ensure the citizenship and the
Not-for-Profit statuses are verified for all e-file Program applicants and that both applicants and
current e-file Providers who are identified with a blank or unknown citizenship status in the
Data Master-1 file are verified as being a United States citizen or a legal alien. A process should
also be established requiring the Stakeholder Partnerships, Education, and Communication
function to notify the Electronic Tax Administration and Refundable Credits office when a
volunteer site is closed or becomes inactive so that office can deactivate the Electronic Filing
Identification Number. 3
The Commissioner, SB/SE Division, should implement controls to ensure that the monitoring
visit procedures are being followed, the information reported to SB/SE Division Headquarters is
accurate, and the results of the monitoring visits are used to improve and measure the
effectiveness of the e-file Program.


2
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
3
  For those applicants accepted to participate in the e-file Program, the IRS assigns an Electronic Filing
Identification Number. This number allows the IRS to identify a specific Authorized e-file Provider.
                                                                                                                       3
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



Response
IRS management agreed with five of our six recommendations. The IRS will improve
procedures to ensure compliance with internal guidelines; initiate programming changes to
include the citizenship code for alien, student, restricted work authorization; and develop
guidance to deactivate Volunteer Program Electronic Filing Identification Numbers. The IRS
will also analyze its control system for monitoring visit procedures, assess effectiveness of
changes, develop an action plan to assess the Monitoring Program, and update internal guidelines
with relevant changes.
The IRS did not agree to verify the citizenship status of all e-file Providers, stating that recent
legislation mandating e-file for most return preparers will require the IRS to modify the current
citizenship rules. If this recommendation was implemented in concert with the e-file mandate,
the IRS believes it would effectively bar all foreign preparers from completing United States tax
returns, an outcome that would undermine effective tax administration. It is currently evaluating
ways to address these challenges under the auspices of the Return Preparer Implementation team.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
In its response, the IRS stated that recent legislation mandating e-file for most return preparers
will require it to modify the current e-file Provider citizenship rules. E-file Providers may no
longer be required to be United States citizens.
However, as the IRS states, it shares our concern of the need to accurately verify information
about e-file Providers. Therefore, although there may no longer be a requirement for e-file
Providers to be United States citizens, the IRS should continue to ensure that all United States
based e-file Providers have valid Social Security Numbers and pass a citizenship test. Any
foreign-based preparers should be required to provide Individual Taxpayer Identification
Numbers. These should also be verified. This will ensure all e-file Program requirements are
being met and the IRS has reliable information to make decisions.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                     4
                                   The Screening and Monitoring of E-File Providers
                                  Has Improved, but More Work Is Needed to Ensure
                                          the Integrity of the E-File Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Although the Application Screening Process Has Improved, More Work
          Is Needed to Help Ensure the Integrity of the Individuals Applying for
          Participation in the E-File Program ..............................................................Page 5
                    Recommendations 1 through 3:.........................................Page 10

                    Recommendation 4: .................................................................. Page 11

          The Monitoring Program Is Still Not Ensuring E-File Providers Are
          Compliant With Program Requirements.......................................................Page 12
                    Recommendations 5 and 6: ..............................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV– Outcome Measure .................................................................Page 21
          Appendix V– Prior Treasury Inspector General for Tax
          Administration Report Recommendations....................................................Page 23
          Appendix VI – Management’s Response to the Draft Report ......................Page 27
                   The Screening and Monitoring of E-File Providers
                  Has Improved, but More Work Is Needed to Ensure
                          the Integrity of the E-File Program




                            Abbreviations

DM-1                 Data Master - 1
e-file; e-filed      Electronic filing; electronically filed
EFIN                 Electronic Filing Identification Number
ERO                  Electronic Return Originator
IRS                  Internal Revenue Service
SB/SE                Small Business/Self-Employed
SPEC                 Stakeholder Partnerships, Education, and Communication
U.S.                 United States
                            The Screening and Monitoring of E-File Providers
                           Has Improved, but More Work Is Needed to Ensure
                                   the Integrity of the E-File Program




                                           Background

The Internal Revenue Service’s (IRS) electronic filing (e-file) Program
offers taxpayers an alternative to filing a traditional paper tax return.
The e-file Program enables tax returns to be sent to the IRS in an
electronic format via an authorized IRS e-file Provider. An e-file Provider is generally the first
point of contact for most taxpayers filing a tax return through the IRS’ e-file Program. Figure 1
lists the types of authorized e-file Providers.
                    Figure 1: Types of Authorized IRS E-File Providers

     Electronic Return           EROs originate the electronic submission of income tax returns to
     Originator (ERO)            the IRS. An ERO electronically submits income tax returns that are
                                 either prepared by the ERO firm or received from a taxpayer.

     Intermediate Service        Intermediate Service Providers receive tax return information from
     Providers                   EROs or from taxpayers who file electronically using a personal
                                 computer, modem, and commercial tax preparation software on an
                                 Internet site; process the tax return information; and either forward
                                 the information to a transmitter or send the information back to the
                                 EROs or taxpayers.

     Transmitters                Once the return is prepared, the income tax return data are sent to
                                 the IRS by a Transmitter. Transmitters must have software and
                                 modems that allow them to connect with IRS computers. EROs
                                 and Intermediate Service Providers may also apply to be
                                 Transmitters and transmit return data themselves or they may
                                 contract with accepted third-party Transmitters who will transmit the
                                 data for them.

     Software Developers         Software Developers write the e-file programs according to IRS file
                                 specifications and record layouts making IRS e-file and
                                 Federal/State e-file possible. The IRS and participating States
                                 require that all software pass a series of tests each year. Once
                                 approved, this software may be sold and used by EROs.

   Source: IRS training guidance provided to individuals interested in becoming e-file Providers.

As of June 21, 2009, there were 207,419 authorized EROs who electronically filed (e-filed)
about 61 million (66 percent) of the approximately 92 million e-filed tax returns accepted in
Calendar Year 2009. The primary means by which the IRS regulates e-file Providers are the
application screening process and the monitoring program.



                                                                                                     Page 1
                         The Screening and Monitoring of E-File Providers
                        Has Improved, but More Work Is Needed to Ensure
                                the Integrity of the E-File Program



The application screening process is used to ensure individuals applying for entry into the
e-file Program meet required screening and verification checks before they are authorized to
participate in the e-file Program. To become an e-file Provider, an applicant is required to
complete an Application to Participate in the IRS e-file Program (Form 8633) and submit it and a
fingerprint card to the IRS. The IRS allows an individual with a professional certification to
send a copy of the certification in lieu of a fingerprint card. Certifications include Attorney,
Certified Public Accountant, Enrolled Agent, and banking official. Each application is required
to identify a Principal(s) and at least one Responsible Official.
   •   A Principal includes the sole proprietor, partners, or individuals authorized to act for the
       entity in legal and/or tax matters. At least one such individual must be listed on the
       application.
   •   A Responsible Official is the first point of contact with the IRS and has the authority to
       sign revised IRS e-file applications. A Responsible Official ensures the e-file Provider
       adheres to the provisions of the revenue procedure as well as all publications and notices
       governing IRS e-file.
The requirements and suitability checks outlined in the IRS e-file Application and Participation
(Publication 3112) include:
   •   Applicant must be a United States (U.S.) citizen or legal alien.
   •   Applicant must be 21 years of age as of the date of the application.
Suitability checks may include:
   •   Criminal background check.
   •   Tax compliance check to ensure all required tax returns are filed and paid and to identify
       fraud and preparer penalties.
All authorized e-file Providers except those that
function solely as Software Developers must meet
requirements and pass suitability checks prior to           E-file Program requirements are
acceptance into the e-file Program. If an individual        meant to protect the Program’s
does not meet the requirements or fails a suitability              image and integrity.
check, the application will be denied. An applicant
denied participation in the IRS e-file Program will be
notified in writing and may appeal the decision.
Once approved, e-file Providers must maintain strict adherence to e-file Program requirements
to ensure continued participation. An e-file Provider may continue to participate in the
IRS e-file Program if the business and its Principal(s) and Responsible Official(s) meet and
adhere to IRS e-file Program requirements. These requirements are included in Revenue
Procedure 2007-40, Handbook for Authorized IRS e-file Providers of Individual Income Tax
                                                                                             Page 2
                             The Screening and Monitoring of E-File Providers
                            Has Improved, but More Work Is Needed to Ensure
                                    the Integrity of the E-File Program



Returns (Publication 1345), and in Publication 3112. Requirements include the need to ensure
tax returns are accurately filed, appropriate documentation is maintained, documentation is
signed by the taxpayers, and security systems are in place to prevent unauthorized access to
taxpayer accounts and personal information by third parties.

The Wage and Investment Division is responsible for screening e-file Providers
Two functions within the Wage and Investment Division are involved in the screening and
certifying of e-file Providers. The Customer Account Services function’s Electronic Products
and Services Support (E-Help) office in the Andover Campus 1 accepts and processes e-file
Program applications and performs the initial and periodic screening process to ensure applicants
meet the requirements of the e-file Program. The Electronic Tax Administration and Refundable
Credits office sets the policies for the e-file Program.
The IRS uses the Automated Suitability Analysis Program to analyze data included on
applications to verify that all requirements are met. Each day, information is extracted from the
new applications awaiting approval and matched against Master File 2 data to validate adherence
with requirements. For those applicants that have “hits” (concerns identified regarding one or
more of the factors validated), the information is added to a work list and assigned to an assistor
for review. The system will also take those applicants with “no hits” and evaluate whether or not
fingerprint cards are required and, for those that are required, send the fingerprint cards to the
Federal Bureau of Investigation for a criminal background check. For those applicants with
criminal records, reports are sent to the IRS Criminal Investigation Division’s Fraud Detection
Center for review.
For those applicants accepted to participate in the e-file Program, the IRS assigns an Electronic
Filing Identification Number (EFIN). The EFIN allows the IRS to identify a specific Authorized
e-file Provider.

The Small Business/Self-Employed Division’s Examination function is
responsible for monitoring e-file Providers
The Small Business/Self-Employed (SB/SE) Division’s Examination Policy unit establishes the
procedures for executing the IRS’ monitoring visits of e-file Providers. The Exam Planning and
Delivery unit coordinates and monitors the use of Examination function resources in executing
the visitations. The visitations are conducted by field examiners located throughout all seven




1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 3
                              The Screening and Monitoring of E-File Providers
                             Has Improved, but More Work Is Needed to Ensure
                                     the Integrity of the E-File Program



Area Offices. 3 The purpose of the monitoring program is to verify the e-file Providers’
compliance with the e-file Program requirements.
Monitoring visits include:
    •   Referral visits that are mandatory when the referral suggests noncompliance.
    •   Targeted visits that are based on selection criteria that indicate compliance issues.
    •   Followup visits that are conducted if a violation was identified in the previous year.
    •   Random visits that are based on a sampling of e-file Providers.
Violation(s) identified during monitoring visits may result in a warning, written reprimand,
suspension, or expulsion of an e-file Provider.
This review is a followup review to previous audits the Treasury Inspector General for Tax
Administration performed assessing the effectiveness of the IRS’ screening and monitoring of
e-file Providers. 4 Appendix V provides a list of the recommendations and corrective actions
associated with these reviews.
This review was performed at the Customer Account Services function’s E-Help office at the
Andover Campus and in the E-File Monitoring Coordinator offices in Phoenix, Arizona;
San Jose, California; and Boston, Massachusetts, during the period May through
December 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
4
  Better Screening and Monitoring of E-File Providers Is Needed to Minimize the Risk of Unscrupulous Providers
Participating in the E-File Program (Reference Number 2007-40-176, dated September 19, 2007), Improvements to
the Electronic Return Originator Monitoring Program Are Needed (Reference Number 2003-30-039, dated
January 15, 2003), Improvements Are Needed in the Screening and Monitoring of E-File Providers to Protect
Against Filing Fraud (Reference Number 2004-40-013, dated November 3, 2003), and E-File Providers Are Not
Adequately Screened (Reference Number 2002-40-111, dated June 27, 2002).
                                                                                                            Page 4
                             The Screening and Monitoring of E-File Providers
                            Has Improved, but More Work Is Needed to Ensure
                                    the Integrity of the E-File Program




                                     Results of Review

Although the Application Screening Process Has Improved, More
Work Is Needed to Help Ensure the Integrity of the Individuals
Applying for Participation in the E-File Program
As we reported in Fiscal Year 2007, the IRS has an effective process for ensuring applicants
(Principals and Responsible Officials) meet age requirements and e-file Providers meet certain
suitability checks, such as tax compliance. The IRS verifies that all new applicants are at least
21 years of age and not using the identity of a
deceased person. It has also developed an
automated process to check and monitor tax             In response to TIGTA’s 2007 report, the
                                                        IRS has implemented citizenship tests
compliance of both applicants and existing
                                                         and checks to ensure organizations
approved e-file Providers.                                 claiming Not-for-Profit status are,
                                                        in fact, Not-for-Profit organizations.
Additionally, as of June 2009, the IRS stated that it
is submitting 100 percent of the fingerprint cards,
if one is required of the applicant, to the Federal
Bureau of Investigation so that criminal background checks can be conducted. Prior to
June 2009, the IRS was conducting limited background checks.
In response to our Fiscal Year 2007 report, the IRS began validating the Not-for-Profit status of
existing e-file Providers and verifying that all existing e-file Providers and applicants are either
U.S. citizens or legal aliens with authorization to work in the U.S. However, not all
Not-for-Profit organizations were validated, and the verification of citizenship status has not
been completed for all existing e-file Providers.
In addition, we conducted a separate review to determine whether the IRS has established
effective access and audit trail controls for the Registered User Portal 5 to protect taxpayer data
from unauthorized disclosure. 6 That review found that the IRS does not perform suitability
checks on all users with the ability to e-file tax returns. The IRS allows Principals and
Responsible Officials to delegate their access rights to employees, partners, members of the firm,
or any person with a business relationship with the firm. These “delegated users” are not
required to undergo a suitability check. In addition, a Principal or Responsible Official can
assign a special “Principal Consent” privilege to a delegated user that allows the delegated user


5
 The Registered User Portal allows access to the IRS’ e-Services suite of applications.
6
 Additional Security Is Needed for Access to the Registered User Portal (Reference Number 2010-20-027, dated
March 31, 2010).
                                                                                                        Page 5
                                 The Screening and Monitoring of E-File Providers
                                Has Improved, but More Work Is Needed to Ensure
                                        the Integrity of the E-File Program



to propagate his or her privileges to other individuals. IRS records show that there are
9,988 delegated users with the ability to e-file tax returns, and approximately 6,500 of these users
also had access to the e-Services incentive products.
The IRS made a decision to allow Principals and Responsible Officials to assume the risks of
delegating their access rights to other individuals, and it believes the risks are mitigated by
requiring Principals and Responsible Officials to file a Power of Attorney 7 with the IRS.
However, the Treasury Inspector General for Tax Administration believes that taxpayers expect
the IRS to protect their personal data, and the Power of Attorney document does not provide the
same assurance as the suitability check. The Treasury Inspector General for Tax Administration
recommended that the Director of the Electronic Tax Administration and Refundable Credits
office require suitability checks on delegated users who e-file tax returns.
The review also found that the automated program used to systemically check the tax compliance
of an e-file applicant does not provide a systemic check of the spouse’s tax compliance.
Therefore, the spouse’s tax compliance check is performed manually, which is inefficient and
increases the risk of human error. We recommended that the Chief Technology Officer enhance
the Automated Suitability Analysis Program to enable systemic analysis of a spouse’s tax
compliance.
More improvements are needed to ensure applicants meet certain suitability checks, such as
Not-for-Profit status and citizenship status. It is important that the IRS adequately screens all
e-file Provider applicants to protect both the taxpaying public and the Federal Government from
the actions of unscrupulous e-file Providers.

Some Not-for-Profit organizations were not validated
Not-for-Profit applicants are excluded from all e-file Program requirements and suitability
checks. Therefore, it is essential that the IRS verify the applicant is in fact a Not-for-Profit
organization.
The IRS conducted a one-time match of 85 percent of the e-file Providers that claimed to be
Not-for-Profit organizations to validate their Not-for-Profit status
In response to our Fiscal Year 2007 report, in November 2008, the IRS conducted a one-time
match to ensure that the current e-file Providers claiming to be Not-for-Profit organizations were
correctly claiming Not-for-Profit status. The IRS stated that 85 percent of the e-file Providers
that claimed to be Not-for-Profit were designated as “Stakeholder Partnerships, Education, and




7
    A Power of Attorney is a written authorization to act on someone else’s behalf in a legal or business matter.
                                                                                                                Page 6
                            The Screening and Monitoring of E-File Providers
                           Has Improved, but More Work Is Needed to Ensure
                                   the Integrity of the E-File Program



Communication (SPEC)-related,” indicating they were partners in the IRS’ Volunteer Program. 8
The IRS matched its list of SPEC-related Not-for-Profit e-file Providers to the SPEC function’s
database of organizations that participate in its Volunteer Program. The IRS determined that
1,217 Not-for-Profit organizations could not be validated to the SPEC function’s database. As a
result, 1,185 EFINs were deactivated. Thirty-two e-file Providers submitted a successful appeal
and were reinstated. The IRS did not validate the approximately 15 percent of the Not-for-Profit
e-file Providers that were designated as Not-for-Profit organizations but were not SPEC-related.
As of November 2008, new applicants that indicate they are Not-for-Profit organizations and
claim to be part of the SPEC function are required to enter a Site Identification Number 9 when
they apply to the e-file Program. The Site Identification Numbers are systemically validated to
the SPEC function database of volunteer organizations. Also included in the verification process
are the IRS’ local walk-in offices, called Taxpayer Assistance Centers. IRS employees verify the
Office Designation Number reflected on the e-file Program application to the IRS Taxpayer
Assistance Center list. The Not-for-Profit status of large entities, 10 Employee Benefit
Programs, 11 and State Government agencies are verified manually by IRS employees by
researching the related tax information on the Integrated Data Retrieval System. 12
Tests show some Not-for-Profit organizations have not been validated
A statistical sample of 97 e-file Providers from a population of 13,797 that were active as of
August 2009 and designated as Not-for-Profit organizations showed that 18 (19 percent) were
erroneously designated as Not-for-Profit organizations. Twelve (12 percent of the total sample)
of the 18 were not subjected to suitability checks. Of these:
    •   10 e-file Providers were designated as SPEC-related Not-for-Profit organizations, but
        were either not on the SPEC function’s database or were in an inactive status on the
        SPEC function list. Six are currently active e-file Providers and appear to be for-profit
        organizations. Four were placed in an inactive status after our sample was selected. The
        IRS does not have a process to notify the e-file Program to deactivate EFINs when a
        SPEC function volunteer site closes or the SPEC function designates an EFIN as inactive.




8
  The SPEC function is responsible for the IRS’ Volunteer Program, which provides no-cost Federal tax return
preparation and electronic filing directed toward underserved segments of individual taxpayers, including
low-income to moderate-income, elderly, disabled, and limited-English-proficient taxpayers. The Volunteer
Program includes the Volunteer Income Tax Assistance Program, the Tax Counseling for the Elderly Program, and
the Volunteer Income Tax Assistance Grant Program.
9
  The identification number of the Volunteer Program tax preparation assistance site.
10
   Companies that file their own tax returns electronically.
11
   Employers who choose to offer electronic filing as an employee benefit.
12
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                       Page 7
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



   •   2 e-file Providers were erroneously input into the database as Not-for-Profit organizations
       when they are actually for-profit organizations. They are still active e-file Providers.
Based on the population of 13,797 e-file Providers who are designated as Not-for-Profit
organizations, there is a potential that 2,560 of these e-file Providers were improperly designated
as Not-for-Profit organizations and that 1,707 of these Providers did not go through the
suitability process, which is required for all for-profit organizations.

The IRS is working toward validating the citizenship of all e-file Providers, but not
all e-file Providers have had their citizenship status validated
In March 2009, the IRS began checking the citizenship and immigration status of new applicants.
It is also checking the status of existing e-file Providers. This is completed by systemically
matching applicant data to the Social Security Administration’s Data Master-1 (DM-1) file. The
DM-1 file should contain date of birth, date of death, gender, citizenship, and name control
information for all issued Social Security Numbers.
If an applicant indicates on the e-file Provider application that he or she is a U.S. citizen or a
legal alien with authorization to work in the U.S. and this does not match the data on the
DM-1 file, the application is denied. A letter is sent to the applicant to explain that the IRS’
records did not match the citizenship information he or she supplied on the application.
However, for both existing and new applicants, if the citizenship status is blank or unknown on
the DM-1 file, the IRS is not requesting that the e-file Provider verify citizenship status.
The automated program for verifying the citizenship status of new applicants needs to be
adjusted
The criteria being used to identify new applicants who are not U.S. citizens or legal aliens does
not include the citizenship category of “alien, student, restricted work authorization.” The
automated program is currently identifying only applicants with a citizenship status of “legal
alien, not eligible to work” and “other” when determining ineligibility for the e-file Program.
E-file Provider applicants with a citizenship status of “alien, student, restricted work
authorization” who have applied to the e-file Program since March 2009, have been allowed into
the Program and should not have been accepted.
The IRS is currently determining the citizenship status of existing e-file Providers
In Fiscal Year 2007, we reported that the IRS was not ensuring that all applicants were either
U.S. citizens or legal aliens. In response, the IRS performed two matches of all active e-file
Providers’ Social Security Numbers to the Social Security Administration’s DM-1 file to
determine the citizenship status of the e-file Providers.
As a result, the IRS stated that it mailed 1,167 letters to e-file Providers who did not have a
citizenship code A (U.S. citizen) or B (legal alien). As of December 2009, the IRS had closed
981 cases.

                                                                                             Page 8
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



   •   828 applicants (71 percent) proved that they were either a U.S. citizen or legal alien.
   •   133 applicants (11 percent) could not prove they were either a U.S. citizen or legal alien.
   •   20 applicants (2 percent) proved that they were either a U.S. citizen or legal alien, but
       received reprimands because the citizenship status indicated on the application was not
       accurate at the time the application was filed.
Sixteen percent (186 of 1,167) are unresolved—16 letters resulted in no responses and 170 cases
are still being worked.
A statistical sample of 89 e-file Providers from a population of 961 e-file Providers active as of
July 2009 showed that 73 (82 percent) e-file Providers proved of their citizenship status. Of the
16 (18 percent) who did not:
   •   1 (1 percent) e-file Provider was not appropriately identified by the new applicant
       citizenship check. According to the IRS, this problem was fixed by April 2009.
   •   2 (2 percent) e-file Providers were deactivated after we notified the IRS that the Providers
       did not meet the criteria of the e-file Program regarding citizenship status.
   •   2 (2 percent) e-file Providers did not meet the IRS’ criteria to be included in the
       citizenship verification check.
   •   5 (6 percent) e-file Providers were not U.S. citizens or legal aliens per the DM-1 file.
       These individuals applied to the e-file Program from September 2008 to February 2009,
       which is after the IRS ran the last check of citizenship status for existing e-file Providers
       and before the IRS implemented the citizenship check for new applicants. As a result,
       these applicants have not received a citizenship verification letter. They are still active
       e-file Providers.
   •   6 (7 percent) e-file Provider files did not contain any supporting citizenship
       documentation or the documentation was not sufficient, even though the IRS had
       indicated that they received adequate documentation to support citizenship status. When
       we notified IRS management of the missing and/or incomplete documentation, they
       reissued five citizenship letters to these e-file Providers asking them to provide
       supporting citizenship documentation. They issued a letter to the sixth e-file Provider
       notifying the Provider that his or her EFIN would be deactivated.
As of October 2009, the IRS stated that it will perform another mail-out of citizenship status
verification letters to existing e-file Providers to include any applicants who were not identified
in the first two mailings. A date has not been established.
There are 961 active e-file Providers listed who are not U.S. citizens or legal aliens but have a
citizenship status on the DM-1 file. Of these, there is a potential that 173 of them have not been
properly validated to ensure they meet the citizenship requirements of the e-file Program.

                                                                                              Page 9
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



If the citizenship status is blank or unknown on the DM-1 file, the IRS is not requesting
that the e-file Provider verify citizenship status
There are instances for which the Social Security Administration does not know the citizenship
or immigration status of an individual. Consequently, the IRS made the decision to not expend
its resources to ask the e-file Provider or applicant to verify citizenship status. The IRS found
that about 109,000 (52 percent) of 210,000 e-file Providers do not have a citizenship code in the
DM-1 file. As a result, the IRS cannot ensure the eligibility of these individuals for the e-file
Program and does not have reliable information from which to make decisions.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure the Not-for-Profit status is verified for all e-file Program
applicants.
       Management’s Response: The IRS agreed with this recommendation. In 2008
       and 2009, the Electronic Tax Administration and Refundable Credits office partnered
       with Not-for-Profit business owners to establish and implement formal procedures for
       validating existing Authorized IRS e-file Providers as Not-for-Profit services. The
       Electronic Tax Administration and Refundable Credits office will implement the
       following steps to ensure continuing compliance: 1) produce regular Not-for-Profit e-file
       applicant reports categorized by program types, including Volunteer Income Tax
       Assistance, Military, Tax Counseling for the Elderly, Tax Assistance Center, State
       Government Agency, Large Taxpayer, and Employee Benefit Program; 2) validate with
       Not-for-Profit business owners that procedures are followed; and 3) perform regular
       quality reviews to identify any manual deviations.
Recommendation 2: Ensure the citizenship status is verified for all new and existing e-file
Program applicants, including updating the automated suitability program for new applicants to
include “alien, student, restricted work authorization” as criteria for not meeting the citizenship
check.
       Management’s Response: The IRS agreed with this recommendation and has
       already initiated programming to include the additional Citizenship Code E (alien,
       student, restricted work authorization) to the existing Citizenship Analysis of the
       Automated Suitability Analysis Program. However, recent legislation mandating e-filing
       for most return preparers will eventually require the IRS to change the current e-file
       Provider rules with respect to citizenship status.
Recommendation 3: Ensure the citizenship status is verified for all e-file Providers who
show a blank or unknown citizenship status in the DM-1 file.


                                                                                            Page 10
                             The Screening and Monitoring of E-File Providers
                            Has Improved, but More Work Is Needed to Ensure
                                    the Integrity of the E-File Program



        Management’s Response: The IRS did not agree with this recommendation. Recent
        legislation mandating e-file for most return preparers will require the IRS to modify the
        current citizenship rules. If this recommendation was implemented in concert with the
        e-file mandate, it would effectively bar all foreign preparers from completing U.S. tax
        returns, an outcome that would undermine effective tax administration.
        The IRS stated that it shares our concern of the need to accurately verify information
        about e-file Providers, but the new law will require it to change the current e-file Provider
        rules with respect to citizenship status. The IRS is currently evaluating ways to address
        this challenge under the auspices of the Return Preparer Implementation team, which has
        a similar issue with respect to foreign-based preparers. The IRS’ goal is to develop a
        comprehensive and complimentary set of requirements for both e-file Providers and
        return preparers. The team’s current objective is to finish the policy development in this
        area by May 2010 and to then develop an implementation timeline.
        Office of Audit Comment: In its response, the IRS stated that recent legislation
        mandating e-file for most return preparers will require it to modify the current e-file
        Provider citizenship rules. However, as the IRS states, it shares our concern of the need
        to accurately verify information about e-file Providers. Therefore, although there may no
        longer be a requirement for e-file Providers to be U.S. citizens, the IRS should continue
        to ensure that all U.S. based e-file Providers have valid Social Security Numbers and pass
        a citizenship test. Any foreign-based preparers should be required to provide Individual
        Taxpayer Identification Numbers. 13 These should also be verified. This will ensure all
        e-file Program requirements are being met and the IRS has reliable information to make
        decisions.
Recommendation 4: Establish a process requiring the SPEC function to notify the Electronic
Tax Administration and Refundable Credits office when a SPEC-related volunteer site is closed
or becomes inactive so that office can deactivate the EFIN.
        Management’s Response: The IRS agreed with this recommendation. The SPEC
        function e-team coordinated with the Electronic Tax Administration and Refundable
        Credits office and Submission Processing function to develop guidance on deactivating a
        Volunteer Income Tax Assistance/Tax Counseling for the Elderly EFIN. On January 28,
        2010, the SPEC function issued Policy Directive 22.30.1-09.1, which stated effective
        immediately, a Volunteer Income Tax Assistance and/or Tax Counseling for the Elderly
        EFIN will be deactivated when a partner refuses to comply with the SPEC function’s
        Quality Site Requirements and/or when sites are closed as a result of partner choice or
        termination of SPEC function support.

13
  The Individual Taxpayer Identification Number was created to provide individuals who are not eligible to obtain a
Social Security Number with an identification number for tax purposes. It does not change the recipient’s
immigration status or confer the right of employment in the U.S.
                                                                                                         Page 11
                         The Screening and Monitoring of E-File Providers
                        Has Improved, but More Work Is Needed to Ensure
                                the Integrity of the E-File Program



The Monitoring Program Is Still Not Ensuring E-File Providers Are
Compliant With Program Requirements
In response to our Fiscal Year 2007 audit report, the IRS has:
   •   Added procedures requiring that the Monitoring Coordinator check with the Criminal
       Investigation Division to ensure results of e-file Provider criminal cases are used to
       identify potential risk factors or indicators that can be built into the screening and
       monitoring process.
   •   Developed a process to ensure established risk-based selection criteria are used to
       identify e-file Providers for targeted monitoring visits.
   •   Clarified procedures regarding when followup visits should be performed and
       implemented a process to ensure followup visits are conducted in accordance with the
       clarified guidelines.
   •   Developed a process to record the receipt and disposition of referrals from internal and
       external sources.
   •   Developed a process for the Monitoring Coordinators to track results and forward them to
       the SB/SE Division Headquarters analyst.
   •   Developed a process for the Monitoring Coordinators to track e-file Provider suspension
       cases using a new control log. The Monitoring Coordinator is to perform followups to
       ensure the e-file Providers are suspended and documentation is placed in the case file.
   •   Developed procedures requiring the maintenance of adequate documentation supporting
       an e-file Provider’s request for an appeal, as well as documentation supporting the review
       and outcome of an appeal.
Although procedures have been developed, they are not always being followed. Improvements
are needed to ensure the e-file Monitoring Program will have the most impact in detecting and
stopping unscrupulous Providers. Taxpayers and the Federal Government’s risk from fraudulent
tax return filings increases when noncompliant e-file Providers are not identified.

Although procedures have been developed, they are not always being followed
For the 2009 Filing Season, the IRS planned to conduct more than 1,500 e-file Provider
monitoring visits, which is about 1 percent of the 143,000 e-file Providers who e-filed more than
50 tax returns in Calendar Year 2008. The IRS reported that it conducted 1,651 visits during the
2009 Filing Season.
The IRS also conducted a pilot program during the 2009 Filing Season. The pilot focused on
e-file Providers that may be using pay stubs or Earning and Leave Statements to prepare tax

                                                                                             Page 12
                             The Screening and Monitoring of E-File Providers
                            Has Improved, but More Work Is Needed to Ensure
                                    the Integrity of the E-File Program



Monitoring visits are a combination of         returns instead of the taxpayers’ Wage and Tax
referrals, followups, targeted visits,         Statement (Form W-2). The IRS requires that a tax
and random visits.                             return be submitted using income reported on a Form
For targeted visits, only active e-file        W-2. Twenty percent of the more than 1,500 planned
Providers who have e-filed at least            visits for the 2009 Filing Season were to focus on
100 tax returns and have a reject rate of      e-file Providers with the highest e-file reject rates of
25 percent or more are selected.               “Employer Identification Number is incorrect or
Referrals can be from internal or external     invalid,” which is an indication that the tax return
sources. The referral is reviewed by the       might have been filed using a pay stub.
monitor and, if warranted, a monitoring
visit is conducted within 5 business days.     As a result of the 1,651 visits to e-file Providers by
                                               IRS employees during the 2009 Filing Season,
If a followup visit is designated, it should
be conducted in the subsequent year.           813 adverse actions were reported to SB/SE Division
                                               Headquarters, including 102 (13 percent) proposed
After all of the referral, followup, and
                                               suspensions, 120 (15 percent) immediate suspensions,
targeted visits are scheduled, if there are
still more visits that need to be              and 1 (0.1 percent) expulsion. As of April 24, 2009,
conducted, based on a predetermined            390 Forms W-2 monitoring visits were completed.
number of visits for the year for each         Based on these visits, 22 suspensions were proposed,
office, random visits are selected.            58 e-file Providers were suspended, 66 were provided
                                               written reprimands, and 66 were provided warnings.
Seven recommendations in our Fiscal Year 2007 audit report related to the monitoring of
e-file Providers. As a result of those recommendations, the IRS’ manual was updated. However,
tests in three of the seven Area Offices showed that not all changes have been implemented.
   •    The Monitoring Coordinators are not contacting the IRS’ Criminal Investigation Division
        to discuss any trends or problems it is finding with e-file Providers that might help the
        Monitoring Coordinators select high-risk Providers to visit. None of the three
        Monitoring Coordinators interviewed had discussed selection criteria for targeted cases
        with the Criminal Investigation Division.
   •    The IRS does not always target visits based on the criteria of 100 or more returns filed in
        the previous year and a 25 percent or higher reject rate. Two of the three Monitoring
        Coordinators did not target visits for the 2009 Filing Season. For 1 office,
        66 (46 percent) of the 145 targeted visits did not meet the established criteria.
   •    The Form W-2 visits were also not always correctly selected by the Monitoring
        Coordinators based on the criteria provided by SB/SE Division Headquarters. One office
        conducted only 17 (55 percent) of the required 31 Form W-2 visits and none of these
        visits were correctly selected based on the criteria established by SB/SE Division
        Headquarters.
   •    The IRS does not always perform the required followup visits. One office visited did not
        perform any of the 44 followup visits required during the 2009 Filing Season. For the
                                                                                                Page 13
                         The Screening and Monitoring of E-File Providers
                        Has Improved, but More Work Is Needed to Ensure
                                the Integrity of the E-File Program



       other 2 offices visited, 6 (11 percent) of 57 and 7 (32 percent) of 22 followup visits from
       the 2008 Filing Season were not conducted during the 2009 Filing Season.
   •   The IRS does track some referrals it receives. The referral visits that were conducted by
       the Monitoring Coordinators are noted on the monitoring log by each office; however, we
       were unable to verify if any additional referrals were received by the Monitoring
       Coordinators other than what was noted on the log used to document all of the visits. For
       example, one office stated that it received a few telephone referrals. The Monitoring
       Coordinator stated that the information was passed on to another area to be reviewed, but
       there was no documentation that the telephone referrals were received or that they were
       sent elsewhere to be worked.
   •   The IRS does not conduct year-end reconciliations of the case files to the monitoring logs
       and the reports that are sent to the SB/SE Division Headquarters. Without this
       reconciliation, inaccurate statistics are being recorded for the e-file Program and there is a
       potential that e-file Providers that should have followup visits in the next year or be
       suspended in the current year will be overlooked.
       Additionally, for two of the three offices visited, statistics reported to SB/SE Division
       Headquarters included visits that were not actually conducted. One office reported that
       168 visits were conducted during the 2009 Filing Season. However, 35 (21 percent) of
       these visits were not conducted. The reasons the visits were not conducted included
       inclement weather or the inability of the Monitoring Coordinator to locate the e-file
       Provider. For 6 (60 percent) of the 10 visits that were not conducted because the
       Coordinator was unable to locate the e-file Provider, the EFINs were still active as of
       July 2009 and the Providers had e-filed tax returns during the 2009 Filing Season.
   •   The Monitoring Coordinators are not always maintaining accurate suspension logs to
       track proposed suspensions and the date by which the e-file Provider has to respond to
       appeal the proposed suspension. If the Coordinators do not review the deadline dates to
       appeal the proposed suspension, the e-file Provider may remain in the Program instead of
       being suspended. The 3 Area Offices visited showed that 15 (23 percent) of the
       65 e-file Providers that were recommended for suspension in Fiscal Years 2008 or 2009
       were not removed from the Program as required.
   •   The Monitoring Coordinators are not always following up with the IRS’ Appeals Office
       to determine the outcome of appeals filed by the e-file Providers. The required quarterly
       followups are not being done to determine the status of the appeals cases, so the case files
       are not being updated and the Coordinators are not able to ensure that the e-file Providers
       who should be suspended from the Program are suspended.
In addition, the SB/SE Division and the Electronic Tax Administration and Refundable Credits
office are not using the results of the monitoring program to improve the e-file Program. The
individual results of the monitoring visits do not go beyond the Monitoring Coordinators. The
                                                                                            Page 14
                         The Screening and Monitoring of E-File Providers
                        Has Improved, but More Work Is Needed to Ensure
                                the Integrity of the E-File Program



monitoring visit case files are maintained at the Area Offices, and the only information elevated
to the SB/SE Division Headquarters and then to the Electronic Tax Administration and
Refundable Credits office is the total number of visits conducted and the number of warnings,
reprimands, suspensions, and expulsions issued.

Recommendations
The Commissioner, SB/SE Division, should:
Recommendation 5: Implement controls to ensure that the monitoring visit procedures are
being followed.
       Management’s Response: The IRS agreed with this recommendation. A conference
       call was held during the current filing season on February 3, 2010, with its Area
       Coordinators and managers. Topics included re-emphasis of current procedures for
       monitoring the program and changes to final report requirements to include the type of
       violation and method of disposition for all visitations. In addition, final reports will
       require managerial approval before submission to Headquarters.
       The IRS will take additional corrective actions:
       1. It will further analyze its control system for monitoring visit procedures, review and
          formulate appropriate changes, create an action plan, and make changes to its control
          system.
       2. It will assess the effectiveness of the changes at the end of the Fiscal Year 2011 filing
          season and update the Internal Revenue Manual 4.21.1, Electronic Filing
          Program - Monitoring the IRS e-file Program, to reflect changes to the program.
Recommendation 6: Ensure information reported to SB/SE Division Headquarters is
accurate and the results of the monitoring visits are used to improve and measure the
effectiveness of the e-file Program.
       Management’s Response: The IRS agreed with this recommendation and will take
       the following corrective actions:
       1. Develop an action plan to assess the Monitoring Program and formulate appropriate
          recommendations to improve its effectiveness on an annual basis.
       2. Update internal guidelines to reflect changes to the program, if any.




                                                                                           Page 15
                               The Screening and Monitoring of E-File Providers
                              Has Improved, but More Work Is Needed to Ensure
                                      the Integrity of the E-File Program



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’ screening and monitoring of its
e-file Providers is effective. To accomplish this objective, we:
I.       Assessed the effectiveness of the IRS corrective actions to confirm Not-for-Profit
         organizations’ claims and ensure applicants are U.S. citizens or legal aliens authorized to
         work in the U.S.
         A. Determined if the IRS’ corrective actions to confirm the Not-for-Profit status of
            existing e-file Providers were adequate. We selected a statistically valid sample of
            97 of the 13,797 Not-for-Profit organizations that were active as of August 2009 from
            an extract of the Third Party Data Store. 1 The sample was selected based on a
            10 percent error rate, 5 percent precision rate, and 90 percent confidence level. To
            validate the Third Party Data Store information, we selected six EFINs 2 from the
            extract and validated the extract information to printouts from the Third Party Data
            Store.
         B. Determined if the IRS has an effective process to ensure new e-file Provider
            applicants selecting Not-for-Profit status are, in fact, Not-for-Profit organizations.
         C. Determined if the corrective actions taken by the IRS to confirm that existing
            e-file Providers are U.S. citizens or legal aliens were adequate. There were 961 active
            e-file Providers on the Third Party Data Store as of July 2009 who did not have a
            citizenship code of A (U.S. citizen), B (legal alien), or blank per the Social Security
            Administration’s DM-1 file. We selected a statistically valid sample of 89 of the
            961 active e-file Providers based on a 10 percent error rate, 5 percent precision rate,
            and 90 percent confidence level. To validate the information on the Third Party Data
            Store extract, we selected 5 of the 89 e-file Providers and validated their citizenship
            status to the IRS’ Integrated Data Retrieval System. 3




1
  A database that is used to store and update all IRS e-file application information and generate electronic filing and
transmitting identification numbers, letters, and reports. The database is also used to store information for other
e-Services products as well.
2
  For those applicants accepted to participate in the e-file Program, the IRS assigns an EFIN. This number allows
the IRS to identify a specific Authorized e-file Provider.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                              Page 16
                         The Screening and Monitoring of E-File Providers
                        Has Improved, but More Work Is Needed to Ensure
                                the Integrity of the E-File Program



       D. Determined if the IRS has an adequate process to ensure new e-file Provider
          applicants are U.S. citizens or legal aliens.
II.    Assessed the effectiveness of the IRS’ corrective actions to ensure the e-file Program
       monitoring process is effectively identifying those e-file Providers that are not in
       compliance with Program requirements.
       A. Judgmentally selected and performed field visits at three of seven e-file Monitoring
          Coordinator offices (Phoenix, Arizona; San Jose, California; and Boston,
          Massachusetts) to assess adherence to Program guidelines to conduct field visits.
           1. Assessed the effectiveness of the process followed for selecting e-file Providers
              for monitoring visits by interviewing appropriate IRS personnel and obtaining a
              list of the visits conducted during the 2009 Filing Season to determine if the
              selection process included referrals, targeted visits, and random visits based on
              the e-file Program requirements.
           2. Determined if the e-file Monitoring Coordinators correctly reported the results of
              the monitoring visits.
           3. Determined if mandatory followup visits were conducted.
           4. Determined if referral visits were conducted.
           5. Determined if recommended disciplinary actions were correctly taken.
           6. Determined if the IRS maintains adequate documentation supporting an e-file
              Provider’s request for an appeal, as well as documentation supporting the review
              and outcome of an appeal.
           7. Determined if the Monitoring Coordinators are using information from the
              Criminal Investigation Division to improve the screening checks and monitoring
              selection criteria of e-file Providers.
       B. Determined what the IRS does with the information gathered during the monitoring
          visits to improve the e-file Program.
       C. Reviewed the effectiveness of the IRS’ e-file Provider monitoring process and
          identified any control breakdowns, assessed the risk for fraud, and attempted to assess
          the impact on taxpayers and the IRS.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following

                                                                                          Page 17
                          The Screening and Monitoring of E-File Providers
                         Has Improved, but More Work Is Needed to Ensure
                                 the Integrity of the E-File Program



internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices for verifying the citizenship status and Not-for-Profit status of e-file Program applicants
and the monitoring of e-file Providers. We evaluated these controls by interviewing
management, performing queries on related data, and reviewing case files.




                                                                                            Page 18
                        The Screening and Monitoring of E-File Providers
                       Has Improved, but More Work Is Needed to Ensure
                               the Integrity of the E-File Program



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Pamela DeSimone, Lead Auditor
Wilma Figueroa, Senior Auditor
Robert Howes, Senior Auditor
James Allen, Information Technology Specialist




                                                                                    Page 19
                        The Screening and Monitoring of E-File Providers
                       Has Improved, but More Work Is Needed to Ensure
                               the Integrity of the E-File Program



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Technology Officer OS:CTO
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Small Business/Self-Employed Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment
Division SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:ETARC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:RPA:PEI




                                                                                     Page 20
                               The Screening and Monitoring of E-File Providers
                              Has Improved, but More Work Is Needed to Ensure
                                      the Integrity of the E-File Program



                                                                                     Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Reliability of Information – Potential; 111,733 e-file Providers; 2,560 e-file Providers are
      improperly designated as Not-for-Profit organizations, 173 active e-file Providers did not
      have their citizenship status properly validated and may not meet the citizenship
      requirements of the e-file Program, and the IRS is unable to determine whether
      approximately 109,000 active e-file Providers meet the citizenship requirements of the
      e-file Program (see page 5).

Methodology Used to Measure the Reported Benefit:
As of August 2009, there were 13,797 e-file Providers designated as Not-for-Profit
organizations. We selected a statistically valid sample of 97 of the 13,797 e-file Provider
organizations designated as Not-for-Profit. The sample size was based on a 10 percent error rate,
5 percent precision rate, and 90 percent confidence level. We found that 18 (18.5567 percent) of
the 97 Providers were improperly designated as Not-for-Profit organizations. Twelve
(12.3711 percent) of the 97 Providers did not go through the suitability process required for all
for-profit organizations. Based on the population of 13,797 e-file Providers designated as
Not-for-Profit organizations, there is a potential that 2,560 1 of these e-file Providers were
improperly designated as Not-for-Profit organizations and that 1,707 2 of these Providers did not
go through the suitability process that is required for all for-profit organizations.
There were 961 active e-file Providers as of July 2009 who did not have a citizenship code of A
(U.S. citizen), B (legal alien), or blank per our match of the e-file Provider database to the Social
Security Administration’s DM-1 file. We selected a statistically valid sample of 89 of the
961 active e-file Providers based on a 10 percent error rate, 5 percent precision rate, and
90 percent confidence level. We found that the citizenship status of 16 (18 percent) of the
89 Providers was not properly validated. Based on the population of 961 active e-file Providers
who are not U.S. citizens or legal aliens and who have a citizenship status on the DM-1 file,


1
    13,797 x 18.5567 percent = 2,560.
2
    13,797 x 12.3711 percent = 1,707.
                                                                                              Page 21
                               The Screening and Monitoring of E-File Providers
                              Has Improved, but More Work Is Needed to Ensure
                                      the Integrity of the E-File Program



there is a potential that the citizenship status of 173 3 of the e-file Providers has not been properly
validated to ensure they meet the citizenship requirements of the e-file Program.
The IRS performed a match of the 210,000 Social Security Numbers of active e-file Providers as
of June 2008 to the Social Security Administration’s DM-1 file. The results showed that
109,000 (52 percent) Social Security Numbers had a blank or unknown citizenship status on the
DM-1 file. For the 1,167 Social Security Numbers that had a citizenship status other than a
U.S. citizen or legal alien, letters were sent to the e-file Providers to request that the Providers
submit supporting documentation to verify their citizenship status. For the 109,000 Social
Security Numbers that had an unknown or blank citizenship status, a business decision was made
to not send out letters to determine the citizenship status of these individuals. For these
109,000 e-file Providers, the IRS does not have any information to determine whether the
Providers meet the citizenship requirements of the e-file Program and, therefore, it does not
know if these Providers qualify to remain in the e-file Program.




3
    961 x 18 percent = 173.




                                                                                               Page 22
                             The Screening and Monitoring of E-File Providers
                            Has Improved, but More Work Is Needed to Ensure
                                    the Integrity of the E-File Program



                                                                                                  Appendix V

            Prior Treasury Inspector General for Tax
            Administration Report Recommendations

              Report                                                   Corrective Action
              Reference          Recommendation                        per the IRS

              2007-40-176        Verify Not-for-Profit applicants      Agreed – Procedures
              September 2007 1   are a Not-for-Profit organization.    developed.


                                 Validate an applicant’s               Agreed – Reviewed the
                                 citizenship status.                   citizenship verification
                                                                       process and developed a
                                                                       solution.
                                 Develop a process that ensures        Agreed – A “risk-based”
                                 established risk-based selection      selection criterion has been
                                 criteria is used to identify e-file   developed.
                                 Providers for monitoring visits.
                                 Clarify procedures regarding          Agreed – Clarified procedures
                                 when followup visits should be        regarding followup visits.
                                 performed and implement a
                                 process that ensures followup
                                 visits are conducted in
                                 accordance with the clarified
                                 guidelines.

                                 Develop a process to record the       Agreed – Developed a
                                 receipt and disposition of            process.
                                 referrals from internal and
                                 external sources.
                                 Develop a process to ensure           Agreed – Developed a
                                 e-file Provider privileges are        process.
                                 suspended, as appropriate, and
                                 removed from the e-file Program
                                 when they do not adhere to the
                                 e-file Program requirements.



1
 Better Screening and Monitoring of E-File Providers Is Needed to Minimize the Risk of Unscrupulous Providers
Participating in the E-File Program (Reference Number 2007-40-176, dated September 19, 2007).
                                                                                                       Page 23
                            The Screening and Monitoring of E-File Providers
                           Has Improved, but More Work Is Needed to Ensure
                                   the Integrity of the E-File Program



              Report                                                  Corrective Action
              Reference          Recommendation                       per the IRS

              2007-40-176        Develop procedures requiring the     Agreed – Clarified
              September 2007     maintenance of adequate              procedures.
              (continued)        documentation supporting an
                                 e-file Provider’s request for an
                                 appeal and the review and
                                 outcome of an appeal.
                                 Develop a process to ensure          Agreed – Process developed.
                                 management information
                                 accurately reflects the results of
                                 the e-file monitoring program.
                                 Ensure results of criminal cases     Partially Agreed – Will study
                                 involving e-file Providers are       the feasibility of using results
                                 used to identify potential risk      of criminal cases involving
                                 factors or indicators that can be    e-file Providers to identify
                                 built into the screening and         risk factors or indicators for
                                 monitoring process to improve        the suitability process.
                                 on the identification of
                                 unscrupulous e-file Providers.
              2004-40-013        Ensure citizenship and age           Agreed – Will ensure
              November 2003 2    requirements are met.                responsible officials possess
                                                                      valid Social Security
                                                                      Numbers.
                                 Ensure criminal background           Agreed – Process requires the
                                 checks are obtained                  purchase of scanning
                                 electronically.                      hardware and software.
                                                                      Completion of this acquisition
                                                                      will not occur before the
                                                                      2004 Filing Season.
                                 For unprocessable fingerprint        Agreed – Guidelines revised.
                                 cards, a name check should be
                                 used as the basis for the criminal
                                 background check.
                                 Ensure individuals who provide       Agreed – Revised IRS e-file
                                 professional certifications are in   Application and Participation
                                 current standing.                    (Publication 3112) as well as
                                                                      guidelines and procedures.




2
 Improvements Are Needed in the Screening and Monitoring of E-File Providers to Protect Against Filing Fraud
(Reference Number 2004-40-013, dated November 3, 2003).

                                                                                                         Page 24
                            The Screening and Monitoring of E-File Providers
                           Has Improved, but More Work Is Needed to Ensure
                                   the Integrity of the E-File Program



             Report                                                Corrective Action
             Reference          Recommendation                     per the IRS

             2004-40-013        Periodic updates of criminal       Disagreed – No action.
             November 2003      investigations.
             (continued)
                                Use e-file reject rates for        Agreed – Will develop related
                                selecting monitoring visits.       guidance.

                                Establish a system to measure      Agreed – Will revise
                                the effectiveness of the e-file    monitoring reports to reflect
                                Provider monitoring program.       the results broken down by
                                                                   referral type.
             2003-30-039        Establish a goal and method for    Disagreed – Cannot
             January 2003 3     measuring monitoring program       accurately measure results of
                                effectiveness for improving ERO    visits.
                                compliance, such as results of
                                followup visits.
                                Maintain case documentation –      Agreed – Issued memo
                                re-enforce that followup visits    guidance.
                                are a measure of monitoring the
                                impact on compliance.
                                Allow time for case building.      Agreed – Training provided.

                                Ensure ease of identifying         Agreed – Guidance issued.
                                referral sites.
                                Develop a process for proper mix   Agreed – Guidance issued.
                                of random/mandatory visits and
                                a broad geographic coverage.
                                Develop uniform risk-based         Agreed – Guidance issued on
                                criteria for selecting e-file      use of indicators in selecting
                                Providers to include in            e-file Providers for
                                monitoring visit plans.            monitoring visits.
                                Provide clear and unambiguous      Agreed – Guidelines revised.
                                infraction and sanction
                                guidelines.




3
 Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference
Number 2003-30-039, dated January 15, 2003).
                                                                                                    Page 25
                                The Screening and Monitoring of E-File Providers
                               Has Improved, but More Work Is Needed to Ensure
                                       the Integrity of the E-File Program



                Report                                                   Corrective Action
                Reference           Recommendation                       per the IRS

                2003-30-039         Revise e-file Program monitoring     Agreed – Instructed
                January 2003        guidelines to consider Earned        Monitoring Coordinators to
                (continued)         Income Tax Credit due diligence      pursue due diligence penalties
                                    when determining e-file Provider     when appropriate.
                                    compliance with e-file Program
                                    requirements.
                                    Ensure complete case                 Agreed – Guidance issue.
                                    documentation is maintained.
                2002-40-111         Screening procedures should          Disagreed – Due to view that
                June 2002 4         include an independent               number of ineligible
                                    validation of citizenship and age.   applicants based on age and
                                                                         citizenship is small.
                                    All applicants should be             Disagreed – Experience
                                    subjected to credit and criminal     shows credit checks are
                                    background checks before             ineffective. E-file Program
                                    acceptance in the e-file Program.    growth and return preparation
                                                                         for low-income taxpayers
                                                                         would be adversely affected
                                                                         with checks at volunteer sites.
                                    Perform subsequent                   Disagreed – Report does not
                                    credit/criminal checks at regular    justify need. Regular
                                    intervals.                           monitoring of e-file Providers
                                                                         occurs, which ensures
                                                                         compliance with rules. The
                                                                         audit report does not show
                                                                         screening and monitoring
                                                                         processes produce negative
                                                                         results, which would justify
                                                                         additional checks.
                                    Guidelines for handling              Agreed – Will request new
                                    fingerprint cards returned as        fingerprint cards from
                                    unprocessable should be              applicants and resubmit them
                                    followed and individuals with        to the Federal Bureau of
                                    unprocessable fingerprint cards      Investigation.
                                    should be contacted and a new
                                    card provided for completion of
                                    criminal check.
                Source: Prior Treasury Inspector General for Tax Administration audit reports as cited.



4
    E-File Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 27, 2002).
                                                                                                           Page 26
         The Screening and Monitoring of E-File Providers
        Has Improved, but More Work Is Needed to Ensure
                the Integrity of the E-File Program



                                                   Appendix VI

Management’s Response to the Draft Report




                                                            Page 27
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 28
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 29
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 30
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 31
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 32
 The Screening and Monitoring of E-File Providers
Has Improved, but More Work Is Needed to Ensure
        the Integrity of the E-File Program




                                                    Page 33
